TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Internal Revenue Service Oversight
                    Board Has Taken Actions to Improve Its
                     Financial Management, but Continuing
                          Weaknesses Were Identified



                                           June 18, 2010

                              Reference Number: 2010-10-052




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                          adequately followed. TIGTA determined that the
OVERSIGHT BOARD HAS TAKEN                             Board does not effectively monitor its financial
ACTIONS TO IMPROVE ITS FINANCIAL                      activities and did not timely identify
MANAGEMENT, BUT CONTINUING                            approximately $2.2 million in potential excess
                                                      funds for Fiscal Years 2005 through 2009. In
WEAKNESSES WERE IDENTIFIED
                                                      addition, the Board is still not certifying the
                                                      accuracy of costs associated with Board
Highlights                                            activities submitted to the IRS for reimbursement
                                                      to ensure that all expenses are reasonable and
                                                      necessary. However, TIGTA did not identify any
Final Report issued on June 18, 2010                  misclassified or unreported transactions for
                                                      Fiscal Year 2009.
Highlights of Reference Number: 2010-10-052
to the Chairperson, Internal Revenue Service          Further, the Board has implemented a new
Oversight Board.                                      process to administer travel performed by Board
                                                      members; however, it was not consistently
IMPACT ON TAXPAYERS                                   followed. As a result, TIGTA identified certain
The Internal Revenue Service (IRS)                    travel expenses that did not comply with
Restructuring and Reform Act of 1998 called for       established travel guidelines but were
the creation of the IRS Oversight Board (Board),      reimbursed by the Government.
which is an independent body responsible for          WHAT TIGTA RECOMMENDED
providing the IRS with long-term guidance and
direction. The Board is responsible for               TIGTA recommended that the Chairperson, IRS
overseeing the IRS in its administration,             Oversight Board, ensure established policies are
management, and application of the Internal           followed to track and analyze unliquidated
Revenue laws, as well as budgetary oversight.         obligations to determine whether funding levels
As a result, it is important that the Board           are on target. TIGTA also recommended that
maintain proper financial controls over its own       the Board take action to receive billing
budgetary process and ensure proper                   information as required and coordinate to ensure
stewardship of taxpayer funds.                        reimbursement from the IRS is not requested
                                                      until the Board certifies the accuracy of expense
WHY TIGTA DID THE AUDIT                               information. Additionally, the Board should
This audit is a followup review to determine          develop detailed procedures related to arranging
whether the Board adequately addressed                and processing Board travel-related
significant financial management control              transactions, provide all Board members and
deficiencies previously identified by TIGTA in        staff with annual training on travel-related
Fiscal Year 2005. The overall objective of this       procedures, and require that the expenses
review was to evaluate the effectiveness of           incorrectly reimbursed be repaid to the Federal
actions taken by the Board to resolve conditions      Government.
reported in our prior audit, which found that the     In its response to the report, the Board agreed
Board did not have adequate internal controls         with our recommendations. Specifically, the
and some controls that were in place were not         Board has updated its procedures to identify and
followed. Also, the manner in which the Board’s       deobligate excess funds and plans to work with
annual budget was determined may give the             the IRS Chief Financial Officer to certify billings
appearance that the Board is not independent          before payment, has developed its own travel
from the IRS.                                         guide tailored to the needs of Board travelers,
                                                      and plans to train all members and staff via an
WHAT TIGTA FOUND                                      annual distribution of the guide. Finally, all
Our review identified that while procedures and       travel funds incorrectly reimbursed have been
controls have been implemented since our last         repaid.
audit, not all procedures and controls are being
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 18, 2010


 MEMORANDUM FOR CHAIRPERSON, INTERNAL REVENUE SERVICE
                OVERSIGHT BOARD

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Internal Revenue Service Oversight Board
                              Has Taken Actions to Improve Its Financial Management, but
                              Continuing Weaknesses Were Identified (Audit # 200910028)

 This report presents the results of our review of the Internal Revenue Service Oversight Board
 (Board). The overall objective of this review was to evaluate the effectiveness of actions taken
 by the Board to resolve conditions reported in our prior audit of its financial activities. This
 audit was conducted as part of the Treasury Inspector General for Tax Administration’s Fiscal
 Year 2010 Annual Audit Plan and was a followup review to a Fiscal Year 2005 Treasury
 Inspector General for Tax Administration report 1 that found significant weakness in the financial
 management of the Board’s operating funds.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.




 1
  Controls Over the Financial Activities of the Internal Revenue Service Oversight Board Need to Be Improved
 (Reference Number 2005-10-135, dated August 23, 2005).
                                The Internal Revenue Service Oversight Board
                           Has Taken Actions to Improve Its Financial Management,
                                 but Continuing Weaknesses Were Identified




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Financial Controls Were Not Always Followed to Monitor
          Available Funds and Certify the Accuracy of Expenses ..............................Page 4
                    Recommendation 1:..........................................................Page 6

                    Recommendation 2: .................................................................... Page 7

          Federal Travel Regulations Were Not Always Followed by
          Board Members.............................................................................................Page 7
                    Recommendations 3 through 5:...........................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
             The Internal Revenue Service Oversight Board
        Has Taken Actions to Improve Its Financial Management,
              but Continuing Weaknesses Were Identified




                    Abbreviations

Board         Internal Revenue Service Oversight Board
DO            Departmental Offices
FY            Fiscal Year
IRS           Internal Revenue Service
                            The Internal Revenue Service Oversight Board
                       Has Taken Actions to Improve Its Financial Management,
                             but Continuing Weaknesses Were Identified




                                            Background

The Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 1 called for creation of the IRS              The IRS Oversight Board
                                                                  is an independent body
Oversight Board (Board), which is an independent body            responsible for providing
responsible for providing the IRS with long-term                   the IRS with long-term
guidance and direction. The Board consists of nine                guidance and direction.
members, including the Secretary (or Deputy Secretary)
of the Treasury and the IRS Commissioner. The 7 other
members are appointed by the President, with the advice and consent of the Senate, for
5-year terms and are selected on the basis of their professional experience and expertise. The
Board maintains an administrative staff to assist in the fulfillment of its duties and had an annual
operating budget of $2 million in Fiscal Year (FY) 2009. The Board is responsible for
overseeing the IRS in its administration, management, and application of the Internal Revenue
laws. As part of these responsibilities, the Board is specifically tasked with:
    •   Reviewing and approving the budget request of the IRS prepared by the Commissioner.
    •   Ensuring that the budget request supports the annual and long-range IRS strategic plans.
    •   Submitting the IRS’ budget request to the Secretary of the Treasury.
Having major responsibility in providing budgetary oversight of the IRS, it is important that the
Board also adhere to sound budgetary practices and maintain proper financial controls of its own
budgetary process and data.
This is a followup review to determine whether the Board adequately addressed significant
financial management control deficiencies previously identified by the Treasury Inspector
General for Tax Administration in FY 2005. 2 In that audit, we found that the Board did not have
adequate internal controls and some controls that were in place were not followed. Also, we
reported that the manner in which the Board’s annual budget is determined may give the
appearance that the Board is not independent from the IRS. We recommended that the
Chairperson, IRS Oversight Board:
    •   Develop procedures to require the routine review of the Board’s financial information for
        accuracy and the monitoring of open-aged obligations.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Controls Over the Financial Activities of the Internal Revenue Service Oversight Board Need to Be Improved
(Reference Number 2005-10-135, dated August 23, 2005).
                                                                                                          Page 1
                         The Internal Revenue Service Oversight Board
                    Has Taken Actions to Improve Its Financial Management,
                          but Continuing Weaknesses Were Identified



   •   Ensure all requests for reimbursement are reviewed and certified before submission.
   •   Reinforce existing Federal Travel Regulations regarding meal reimbursement to all
       current members and ensure new and incoming Board members are provided instructions
       on relevant regulations before they incur travel expenses.
   •   Request that a separate line item within the Department of the Treasury budget be
       established for the Board’s funding.
This review was performed at the Board’s office located in Washington, D.C., during the period
August 2009 through January 2010. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                             The Internal Revenue Service Oversight Board
                        Has Taken Actions to Improve Its Financial Management,
                              but Continuing Weaknesses Were Identified




                                       Results of Review

Our review identified that while procedures and controls have been implemented since our last
audit, not all procedures and controls are being adequately followed to effectively monitor the
Board’s financial activities. Weak financial management controls impair the ability of the Board
to ensure financial transactions are accurate and appropriate. In addition, the Board did not
effectively monitor available funds to ensure excess funds were timely identified and released as
required. As a result, the Board increases the risk of not complying with Appropriations
guidelines by potentially using excess prior year funds to pay for current year expenses. 3
Furthermore, other Federal agencies with valid financial needs were unable to use funds not
spent by the Board since the Board did not release this money as required. While we did not
identify any underfunding issues related to the Board’s operations, monitoring of available funds
is particularly important because potential underfunding could impact the Board’s compliance
with the Anti-Deficiency Rules. 4
Since our last audit, the Board has taken several actions in an effort to improve financial
management controls. Specifically, procedures have been developed for Board staff to conduct a
monthly review of the cost reports prepared by the Department of the Treasury Departmental
Offices (DO). This review should assist the Board in improving the reliability of the financial
information by identifying misclassified items or expenditures that were incurred but were not
included on the cost report as required. Our review of the cost reports for FY 2009 did not show
any misclassified or unreported transactions.
Further actions have been taken to eliminate the Board’s dependence on the IRS for approval of
its annual budget. The Board’s budget appropriation is no longer determined by the IRS.
Specifically, the Board’s funding is established by an annual Congressional appropriation.
While these actions are a positive step in addressing the weaknesses we identified in our prior
review, we believe further actions are necessary to more effectively control and monitor the
Board’s financial operations. We also noted that the Board’s annual budget increased from
$1.5 million in FY 2006 to $2 million in FY 2009.




3
  31 U.S.C. § 1535(d) states that “An order placed or agreement made under this section obligates an appropriation
of the ordering agency or unit. The amount obligated is deobligated (sic) to the extent that the agency or unit filling
the order has not incurred obligations, before the end of the period of availability of the appropriation.”
4
  31 U.S.C. § 1341(a)(1)(A) prohibits “Making or authorizing an expenditure from, or creating or authorizing an
obligation under, any appropriation or fund in excess of the amount available in the appropriation or fund unless
authorized by law.”
                                                                                                               Page 3
                            The Internal Revenue Service Oversight Board
                       Has Taken Actions to Improve Its Financial Management,
                             but Continuing Weaknesses Were Identified



Financial Controls Were Not Always Followed to Monitor Available
Funds and Certify the Accuracy of Expenses
The Board can take additional actions to more effectively administer its available funds.
Specifically, we determined that the Board did not effectively monitor available funds to ensure
excess funds were timely identified and released as required. In addition, the Board is still not
certifying the accuracy of costs associated with Board activities submitted to the IRS for
reimbursement to ensure that all expenses are reasonable and necessary.

Board staff was not effectively monitoring available funds throughout the year
In our prior report, we determined that the Board had not established any formal procedures or
guidelines requiring the tracking and monitoring of its open-aged obligations, which could have
identified excess funds available for deobligation. In our opinion, the Board could have
accomplished this analysis by comparing its monthly cost report received from the DO to
monthly incurred expenses. This evaluation would have provided needed information about
monthly expenses and whether excess funds may be available for deobligation. By law, Federal
agencies are required to release (or deobligate) appropriated funds that have not been spent by
the end of the fiscal year. In response to this concern, the Board said it had established
procedures to compare expenses to monthly cost reports provided by the DO. This process
should have enabled the Board to timely identify excess funds or potential shortfalls and take
appropriate action to address these issues.
In this review, we confirmed that the Board now has documented procedures in place for
conducting monthly reviews of the cost reports and is following those procedures. Additionally,
the Board also developed procedures for analyzing its open-aged obligations. However, we
found that the Board does not effectively monitor its open-aged obligations to timely deobligate
significant excess funds. We also noted that the Board’s annual budget increased from
$1.5 million in FY 2006 to $2 million in FY 2009. As a result of the increased funding levels,
closer oversight and management of the Board’s expenses is required. By not following
established procedures in monitoring open-aged obligations, the Board did not take timely
actions to deobligate significant excess funds. Our comparison of the annually appropriated 5
amounts for FYs 2005–2009 to billing information found that there is potentially $2.2 million in
unliquidated obligations. These funds were no longer needed for their original purpose and
should have been deobligated by the Board as required.



5
  Appropriation is defined in the IRS Internal Revenue Manual 1.33.4-3 as “a provision of law (not necessarily in an
Appropriations act) authorizing the expenditure of funds for a given purpose. Usually, but not always, an
Appropriation provides budget authority.” Budget authority is defined as “the authority provided by law to incur
financial obligations that will result in outlays…”
                                                                                                            Page 4
                             The Internal Revenue Service Oversight Board
                        Has Taken Actions to Improve Its Financial Management,
                              but Continuing Weaknesses Were Identified



                Figure 1: Unliquidated Obligations Not Timely Deobligated
                                     FYs 2005–2009 6

                                                                                       Unliquidated
                                                             Total Expenses            Obligations
               Fiscal Year            Appropriation
                                                                 Billed                (remaining after
                                                                                       Fiscal Year End)
                   2005                 $ 1,500,000              $ 1,374,757              $ 125,243
                   2006                   1,500,000                1,282,725                 217,275
                   2007                   2,000,000                1,351,613                 648,387
                   2008                   2,000,000                1,491,261                 508,739
                   2009                   2,000,000                1,320,668                 679,332

                  Totals                $ 9,000,000              $ 6,821,024            $ 2,178,976
          Source: Congressional appropriations and DO billings

By not deobligating these funds, the Board increases the risk that it could inadvertently use prior
year funds to pay for current year expenses, which is expressly prohibited by law. 7 In addition,
other Federal agencies with valid financial needs were unable to use this excess money due to the
failure of the Board to deobligate this money as required.

Financial information was not always reviewed for accuracy prior to
reimbursement by the IRS
In our prior report, we found that procedures did not exist requiring the routine review of the
monthly Financial Status Reports to ensure that any misclassified items or significant variances
between expected and actual expenditures were identified and corrected. Timely and reliable
financial management information is critical to effective program management. The prior audit
also found that procedures did not exist requiring the Board to certify, as reasonable and
necessary, all costs submitted to the IRS for reimbursement. As a result, the Board could not
provide assurance to the IRS that the billings were complete, accurate, and contained only
charges related to its operations. For example, the Board’s expenditures recorded on its books
and records could contain significant variances than those recorded by the DO. Thus, it is
possible that the IRS could reimburse the DO for overstated expenses or underpay because not
all expenses are reported as required.
During this review, we confirmed that the Board developed procedures to require Board staff to
reconcile billing information to its books and records. By performing this reconciliation, the


6
  Board staff stated that all billings for FY 2009 had not been received. Therefore, this amount is subject to change
based on the final billing for FY 2009.
7
  31 U.S.C § 1502(a) “bona fide needs” statute stipulates that “Appropriations made for a definite period of time
may be used only for expenses properly incurred during that time.”
                                                                                                              Page 5
                         The Internal Revenue Service Oversight Board
                    Has Taken Actions to Improve Its Financial Management,
                          but Continuing Weaknesses Were Identified



Board should be able to provide assurance to the IRS that the expenses are accurate and should
be reimbursed. Our review of the cost reports for FY 2009 did not show any misclassified or
unreported transactions.
Additionally, implementation of these procedures would comply with the terms of the Board’s
established agreement with the IRS and DO because it requires that the Board certify the
expenses billed by the DO prior to reimbursement by the IRS. These procedures state that the
Board will certify the expenses contained in the billing information and inform the IRS, by
memorandum, that the billing contains costs that are reasonable and necessary and therefore
should be reimbursed by the IRS to the DO.
To enable the Board to certify the accuracy of expenses reimbursed by the IRS, procedures state
that the DO is required to provide the billing information to the Board prior to the DO requesting
reimbursement from the IRS. By providing the Board with an advance billing, the Board can
review and certify the expenses before the IRS reimburses the DO.
Although these procedures have been established, we determined that they are not being
followed by the Board staff. Specifically, the DO is not providing the Board with advance
copies of the billings that the DO plans to submit to the IRS for reimbursement. In addition,
established procedures also require the Board to receive the official billing information from the
DO on a quarterly basis detailing the amount that was actually reimbursed by the IRS. However,
we also found that these quarterly billings are not received by the Board as required. It did not
appear that the Board took any action to secure these reports. As a result, the Board staff
informed us that the billing information is not reconciled to the Board’s financial reports. The
Board also does not certify the billings before payment is made by the IRS. The staff believes
that their review of the monthly financial reports provides assurance that the amounts reimbursed
are accurate. However, we disagree because the billing information prepared by the DO
represents the actual expenses attributed to the Board and should be reviewed prior to
reimbursement to ensure accuracy and compliance with the established agreement between the
Board, IRS, and DO.
By not following established procedures, there is an increased risk that the Board will not timely
identify inaccurate expenses reflected on the DO’s billing information before those expenses are
incorrectly reimbursed to the DO.

Recommendations
The Chairperson, IRS Oversight Board, should:
Recommendation 1: Ensure that established policies are followed to track and analyze
monthly unliquidated obligations to determine whether funding levels are on target. The
procedures should be updated to include a requirement that a Board administrator document, on
an annual basis, the reason why any material unliquidated funds are not released.

                                                                                            Page 6
                        The Internal Revenue Service Oversight Board
                   Has Taken Actions to Improve Its Financial Management,
                         but Continuing Weaknesses Were Identified



       Management’s Response: The IRS Oversight Board agreed with this
       recommendation and has updated its procedures to require the Board’s staff to prepare an
       annual financial report to the Board’s Chairperson that compares the planned and actual
       expenditures during the year and requires financial reviews at the end of July, August,
       and September to identify and deobligate excess funds.
Recommendation 2: Contact the DO to ensure the Board receives the billing information
(both in advance and quarterly reports) as required. In addition, the Board should coordinate
with the DO to ensure the reports requesting reimbursement from the IRS are not sent by the DO
until the Board certifies the accuracy of expense information in accordance with established
procedures.
       Management’s Response: The IRS Oversight Board agreed with this
       recommendation and has established an agreement between the Board and the IRS Chief
       Financial Officer. The Chief Financial Officer will request that the Board certify all
       Interagency Payments and Collections billing requests prior to payment to the
       Department of the Treasury. Also, future interagency agreements will contain language
       specifying that the IRS Chief Financial Officer will request that the Board certify all
       Interagency Payments and Collections requests received from the Bureau of Public Debt.

Federal Travel Regulations Were Not Always Followed by Board
Members
In our prior audit, we identified instances in which Board members did not adhere to the
established travel regulations when performing official travel. At the time, we recommended
that the Board reinforce travel guidelines and ensure new Board members are provided
instructions on relevant requirements before they incur travel expenses. Although the Board
stated it would distribute the DO Travel Handbook to all Board members and staff and
incorporate it into an Orientation Guide for new members, we determined that these actions were
not taken. As a result, during this audit we again identified some travel performed by the Board
members that was not in compliance with official travel guidelines.
Although the Board has implemented a new process to administer travel performed by Board
members, we determined that it was not consistently followed. Specifically, one Board staff
analyst is now solely responsible for all travel-related arrangements and reimbursement
processing for Board members. The Board informed us that having one person control all travel
arrangements and related processing helps avoid any potential travel issues. However, we
identified some Board members that arranged their own travel without the assistance of the
designated Board staff analyst. As a result, we identified certain travel expenses that did not
comply with established travel guidelines but were reimbursed by the Government.
Specifically, we found 4 travel vouchers claiming reimbursement for noncontracted airfare as


                                                                                         Page 7
                            The Internal Revenue Service Oversight Board
                       Has Taken Actions to Improve Its Financial Management,
                             but Continuing Weaknesses Were Identified



well as travel agent fees and penalties totaling $420.81 Although the use of noncontracted airfare
is allowed for Government travel with a documented justification, none was provided in these
cases. Official travel guidelines state that penalties and fees resulting from unauthorized use of
a noncontract carrier should be paid by the individual.
We believe this issue can be attributed to a number of factors, including:
    •   Lack of written procedures clearly outlining the Board’s travel policies.
     • Private sector Board members not being familiar with official Government travel
       guidelines and requirements.
Lack of consistent compliance with required travel regulations could result in disparate treatment
of Federal Government travelers and inappropriate use of Federal Government funds.

Recommendations
The Chairperson, IRS Oversight Board, should:
Recommendation 3: Prepare detailed procedures regarding the arrangement and processing
of all Board travel-related transactions.
        Management’s Response: The IRS Oversight Board agreed with this
        recommendation and has developed its own travel guide tailored to the needs of Board
        travelers. The guide has been distributed to all its current members and will be
        distributed to all new members in the future.
Recommendation 4: Provide all Board members and staff with annual training in Board
travel procedures and official travel guidelines.
        Management’s Response: The IRS Oversight Board agreed with this
        recommendation and will train all members and staff via an annual distribution of the
        Travel Guide. In addition, the Board’s Administrative Support Manager will remain
        updated on current GovTrip92 policies through training provided by the Department of the
        Treasury as needed.
Recommendation 5: Require that the $420 incorrectly reimbursed be repaid to the Federal
Government.
        Management’s Response: The IRS Oversight Board agreed with this
        recommendation and indicated that the money has been repaid.

8
  Three of 4 travel vouchers included expenses for travel agent fees of $40 ($120) and 2 of 4 vouchers included
penalties of $150 each ($300).
9
  GovTrip is an E-Gov Travel Service which includes an online booking engine, travel management services, and a
travel authorization and vouchering system.
                                                                                                        Page 8
                         The Internal Revenue Service Oversight Board
                    Has Taken Actions to Improve Its Financial Management,
                          but Continuing Weaknesses Were Identified



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of actions taken by the
Board to resolve conditions reported in our prior audit of the Board’s financial activities. To
accomplish this objective, we:
I.     Determined what actions were taken by the Board in response to recommendations made
       in the prior financial management review and identified any new financial management
       controls that were implemented.
       A. Interviewed the Board Staff Director.
       B. Obtained and reviewed any procedures developed requiring monthly reports to be
          reviewed for misclassified or significant variances between expected and actual
          expenditures.
       C. Reviewed any procedures developed to monitor and track open-aged obligations.
       D. Determined the process followed to approve Board members’ travel to ensure
          compliance with official travel guidelines and identified how members are informed
          of relevant guidelines.
II.    Assessed whether conditions identified in the prior audit continue to exist and whether
       corrective actions were effective.
       A. Reviewed all transactions contained on monthly Financial Status Reports for FY 2009
          to determine whether they were properly classified and reported.
       B. Obtained and reviewed all reimbursement information submitted to the IRS in
          FY 2009 to ensure all reports were provided to Board management for review and
          certification and that recorded expenses were reasonable and necessary.
       C. Reviewed all travel reimbursement vouchers filed by Board members during FY 2009
          to ensure the vouchers were in compliance with travel guidelines and expenses were
          properly approved.
       D. Obtained the FY 2009 Department of the Treasury Budget to confirm whether the
          Board’s budget amount was listed as a separate line item appropriation and to identify
          how the annual funding level of the Board is currently established.




                                                                                            Page 9
                         The Internal Revenue Service Oversight Board
                    Has Taken Actions to Improve Its Financial Management,
                          but Continuing Weaknesses Were Identified



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Department of the Treasury and statutory
guidelines as well as IRS policies, procedures, and practices for financial management controls
regarding the monitoring and tracking of expenses related to the Board’s performance of its
duties. We evaluated these controls by interviewing Board staff, reviewing applicable
documentation, and testing transactions.




                                                                                         Page 10
                       The Internal Revenue Service Oversight Board
                  Has Taken Actions to Improve Its Financial Management,
                        but Continuing Weaknesses Were Identified



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Joseph F. Cooney, Audit Manager
Yasmin B. Ryan, Lead Auditor
Seth A. Siegel, Senior Auditor
Chinita M. Coates, Auditor
Chanda L. Stratton, Auditor




                                                                                  Page 11
                       The Internal Revenue Service Oversight Board
                  Has Taken Actions to Improve Its Financial Management,
                        but Continuing Weaknesses Were Identified



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Financial Officer OS:CFO




                                                                       Page 12
                         The Internal Revenue Service Oversight Board
                    Has Taken Actions to Improve Its Financial Management,
                          but Continuing Weaknesses Were Identified



                                                                                  Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   •   Funds Put to Better Use – Potential; $2,178,976 could have been deobligated and made
       available to other Federal agencies with valid financial needs for FYs 2005–2009 (see
       page 4).

Methodology Used to Measure the Reported Benefit:
We compared the expenses billed by the DO to the IRS for reimbursement of the Board’s
expenses to the FYs 2005 through 2009 appropriated budgeted amounts to determine the excess
amounts that were not deobligated at the end of each fiscal year. We found that although the
Board has information available and procedures in place to identify excess funds, it is not using
that information. We identified statutory requirements that require the Board to deobligate these
funds prior to the end of the appropriation period so that the funds can be made available to other
agencies that have valid needs.

Type and Value of Outcome Measure:
   •   Questioned Costs – Actual; $420 in penalties and fees incurred for noncontracted airfare
       that was booked through a private travel agency (see page 7).

Methodology Used to Measure the Reported Benefit:
We reviewed all travel vouchers filed by Board members during FY 2009 and compared them to
official travel guidelines to ensure that the vouchers were in compliance with travel guidelines.
We found that 3 of 4 travel vouchers included expenses for travel agent fees of $40 ($120) and
2 of the 4 vouchers included penalties of $150 each ($300). The additional fees and penalties are
the responsibility of the traveler if a nongovernment contract fare is used and no justification is
provided.




                                                                                           Page 13
          The Internal Revenue Service Oversight Board
     Has Taken Actions to Improve Its Financial Management,
           but Continuing Weaknesses Were Identified



                                                   Appendix V


Management’s Response to the Draft Report




                                                         Page 14
     The Internal Revenue Service Oversight Board
Has Taken Actions to Improve Its Financial Management,
      but Continuing Weaknesses Were Identified




                                                    Page 15
     The Internal Revenue Service Oversight Board
Has Taken Actions to Improve Its Financial Management,
      but Continuing Weaknesses Were Identified




                                                    Page 16
     The Internal Revenue Service Oversight Board
Has Taken Actions to Improve Its Financial Management,
      but Continuing Weaknesses Were Identified




                                                    Page 17
